      Department of Homeland Security



        Review of Costs Invoiced by the City of San
    Antonio Relating to the San Antonio International
     Airport Terminal B Checked Baggage Screening
      Project Under Other Transaction Agreement
     Number HSTS04-09-H-REC168 Awarded by the
          Transportation Security Administration




            American Recovery and Reinvestment Act of 2009



OIG-12-44                                                    March 2012

                                                          Office of III!;pcctor G el/eraf

                                                          U.S. Department of Homela nd S«urily
                                                          Washington. OC 20528



                                                          Homeland
                                                          Security
                              MAR 5 - 2012
MEMORAN DUM FOR:              Robi n Kane
                              Assistant Adm inistratorlChiefTechnology Officer
                              Office of Operational Process and Technology
                              Transportation Security Administration

FROM:                         Anne L. Richards ~)I~
                              Assistant Inspector General for Audits

SUBJECT:                      Review o/Costs Invoiced by the City o/San Antonio
                              Relating to the San Antonio International Airport Terminal
                              B Checked Baggage Screening Project Under Other
                              Transaction Agreement Nu mber HSTS04-09-H-REC168
                              Awarded by the Transportation Security Administration

Attached for your infonn ation is our final letter report, Review a/Costs Invoiced by the
City o/San Antonio Relating to the San Antonio International Airport Terminal B
Checked Baggage Screening Project UI/der Other Transactioll Agreement Number
HSTS04-09-H-RECI68 Awarded by the Transportation Security Administration. Since
the report contains no recommendat ions to Transportation Security Administration
management, we did not so licit fonna l comment.

Consistent with our responsibili ty under the Inspector General Act, we are providing
copies of o ur report to appropri ate congressional comm ittees with oversight and
appropriation responsibil ity over the Department of Homeland Security. We wi ll post the
report on o ur website for public dissemination.

Should you have any questions, please cal l me, or your staff may contact
John E. McCoy II, Deputy Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
Background
On February 17, 2009, Congress enacted the American Recovery and Reinvestment Act of
2009 (Recovery Act), as amended, to preserve and create jobs, promote economic
recovery, and invest in transportation, environmental protection, and other infrastructure
that will provide long-term economic benefits. The Recovery Act appropriated $1 billion
to the Transportation Security Administration (TSA) for “procurement and installation of
checked baggage explosives detection systems and checkpoint explosives detection
equipment….” According to TSA, $574,023,483 of that amount was awarded to 25
airport organizations for 29 projects modifying airports to accommodate new baggage-
screening equipment.

Under Other Transaction Agreement (OTA) No. HSTS04-09-H-REC168, TSA agreed to
reimburse the City of San Antonio (the City) for allowable, allocable, and reasonable
costs to support installation of a Checked Baggage Inspection System (CBIS) at the San
Antonio International Airport Terminal. The OTA cost ceiling was $14,385,466 and
covered 90% of project design, management, and construction for the CBIS portion of
the airport’s overall baggage handling system.

The OTA was signed on September 28, 2009; specifies a project period from May 1,
2009, through September 30, 2011; and requires the City to submit invoices for
reimbursement of project costs to TSA. Reimbursement for eligible project costs is based
on the scope of the agreement; Office of Management and Budget (OMB) Circular A-87,
Cost Principles for State, Local and Indian Tribal Governments; and the TSA publication
Reimbursable and Non-Reimbursable Costs for the Electronic Baggage Screening
Program, version 1.0, June 2008. As of July 2011, the City invoiced costs of $8,994,816
for installation of the CBIS. The costs invoiced by the City represent 90% of the costs
incurred.

The agreement also requires the City to comply with OMB Circular A-133, Audits of
States, Local Governments, and Nonprofit Organizations, and Recovery Act provisions
to submit quarterly recipient reports to the federal government; pay prevailing wages as
determined by the Secretary of Labor; and use American1 iron, steel, and manufactured
goods.

The objective of this audit was to determine whether costs invoiced by the City are
allowable, allocable, and reasonable according to the funding agreement and applicable
federal requirements.




1
 The Department of Homeland Security (DHS) granted a limited, nationwide public interest waiver of the
“buy American” requirements for each TSA Electronic Baggage Screening Program project. The waiver
specifies that at least 95% of the costs of each project will comply with the buy American requirements of
section 1605 of the Recovery Act, and allows up to 5% of total project costs to be used for non-American
products.

                                                  Page 2
Results of Review
We determined that that the City incurred and invoiced sufficient allowable, allocable,
and reasonable costs, as of July 2011, to earn the OTA agreed-upon share, as follows:

                       Description                        Invoiced Cost
         Construction, Design, and Management                   $9,994,240
         TSA Share                                                    90%
          Total TSA Share                                       $8,994,816

In addition, we verified that the City submitted the required quarterly reports on project
activities to the federal government. We also determined that the City complied with the
OTA requirements for paying prevailing wages and using American iron, steel, and
manufactured goods in the construction of the project.




                                          Page 3
Appendix A
Purpose, Scope, and Methodology

                   The objective of this audit was to determine whether costs invoiced
                   by the City are allowable, allocable, and reasonable according to
                   the funding agreement and applicable federal requirements. Our
                   audit covered invoiced costs of $8,994,816 for the period May 1,
                   2009, through July 21, 2011.

                   Our tests and procedures included the following:

                      •	 Reviewing TSA project files, the OTA and modifications,
                         the Recovery Act, and TSA and OMB guidelines;
                      •	 Interviewing TSA officials to get an understanding of the
                         project and project management;
                      •	 Examining the City’s accounting records supporting 

                         amounts invoiced; 

                      •	 Interviewing City officials to obtain an understanding of
                         project management, accounting, procurement, and
                         invoicing;
                      •	 Inspecting the CBIS project; and
                      •	 Reviewing the audit working papers of the certified public
                         accounting firm that performed the Single Audit of the City
                         for the fiscal year ending September 30, 2010.

                   The Single Audit of the City was performed by Grant Thornton
                   and included Recovery Act-funded CBIS project costs totaling
                   $6,986,912 for fiscal year 2010 (about 78% of invoiced costs).
                   The Single Audit report classified the CBIS as a major program.
                   The Single Audit report did not identify any questionable costs
                   related to the CBIS or any deficiencies in internal controls that
                   were identified as material weaknesses that would affect the CBIS.

                   We also tested City records supporting costs invoiced to determine
                   compliance with OMB Circular A-87 and with other terms and
                   conditions of the agreement. We considered City internal controls
                   over the administration of TSA funds in determining our audit
                   procedures.

                   We conducted this performance review between August 2 and
                   January 20, 2012, pursuant to the Inspector General Act of 1978,
                   as amended, and according to generally accepted government
                   auditing standards. Those standards require that we plan and
                   perform the audit to obtain sufficient, appropriate evidence to
                   provide a reasonable basis for our findings and conclusions based
                   upon our audit objectives. We believe that the evidence obtained
                   provides a reasonable basis for our findings and conclusions based
                   upon our audit objectives.


                                      Page 4
Appendix A
Purpose, Scope, and Methodology

                   Our audit was conducted without the benefit of a technical
                   evaluation by TSA; therefore, our conclusions are qualified to the
                   extent that a technical evaluation may affect the allowability of
                   invoiced costs. However, we coordinated our review with
                   appropriate contracting officials.

                   We appreciate the cooperation of the City and TSA officials in
                   providing the information and access necessary to accomplish this
                   review.




                                      Page 5
Appendix B
Major Contributors to this Report

                    Roger LaRouche, Director
                    Karl Gallagher, Audit Manager
                    Garrick Greer, Auditor
                    Ralleisha Dean, Report Referencer




                                      Page 6
Appendix C
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Departmental Recovery Act Coordinator
                      Acting General Manager, Checked Baggage Division/Program
                      Manager, Electronic Baggage Screening Program, TSA
                      Audit Liaison Official, TSA

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                                        Page 7
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
